                           Office of the Inspector General



August 4, 2000

William A. Halter
Deputy Commissioner
 of Social Security

Inspector General


Office of Hearings and Appeals Time and Attendance Policies and Procedures at
Hearing Offices (A-06-98-91010)


Attached is a copy of our final report. Our objective was to evaluate adherence to
policies and procedures for documenting and recording time and attendance data for
payroll purposes by Office of Hearings and Appeals employees, timekeepers and
supervisors located in Hearing Offices nationwide.

Please comment within 60 days from the date of this memorandum on corrective action
taken or planned on each recommendation. If you wish to discuss the final report,
please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
General for Audit, at (410) 965-9700.




                                          James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



     OFFICE OF HEARINGS AND

        APPEALS TIME AND

    ATTENDANCE POLICIES AND

         PROCEDURES AT

        HEARING OFFICES


   August 2000    A-06-98-91010





   AUDIT REPORT

                E X E C U T I V E S U M M A R Y


OBJECTIVE
The objective of this audit was to evaluate adherence to policies and procedures for
documenting and recording time and attendance (T&A) data for payroll purposes by
Office of Hearings and Appeals (OHA) employees, timekeepers and supervisors located
in Hearing Offices (HO) nationwide.

BACKGROUND
The OHA has approximately 1,150 administrative law judges and 5,600 support staff in
140 permanent and temporary HOs nationwide. In Fiscal Year 1998, OHA spent more
than $517 million in salaries and benefits. Social Security Administration's (SSA)
automated Mainframe Time and Attendance System (MTAS) is used to record and
maintain T&A data. T&A data is used to track leave balances and pay employees once
it has been verified by the timekeeper and certified by a duly appointed supervisor.
Although SSA became an independent agency on March 31, 1995, management still
uses the U. S. Department of Health and Human Services Guide For Timekeepers as
its primary guide to T&A management. SSA and OHA management have also issued a
number of memoranda to further clarify and manage employee and timekeeper actions.

In addition to the Guide For Timekeepers and SSA guidance, the General Accounting
Office (GAO) issues criteria for recording, maintaining and approving T&A data. To
ensure accuracy, the GAO Policy and Procedures Manual for Guidance of Federal
Agencies and GAO Revisions to Title 6 on Pay, Leave, and Allowances require that the
completed T&A records be approved by the supervisor. Verification must ensure that
recorded attendance is reasonable and allowable and, to the best of the supervisor’s
knowledge, is true, correct and accurate in accordance with applicable laws,
regulations, policies and guidelines.

RESULTS OF REVIEW

Supervisors, timekeepers and employees in HOs do not always adhere to T&A
procedures. T&A practices in HOs require improvement in the following areas to ensure
the integrity of the system: (1) supervisory compliance with T&A responsibilities;
(2) timekeeper compliance with T&A policies and procedures; (3) accuracy of employee
T&A records; and (4) other matters relating to a lack of controls over the T&A process.
Some examples of the practices and controls that require improvement are:




                                          i
•	 Supervisory T&A Responsibilities - Supervisors in five of the seven HOs reviewed
   had not adequately approved the Serial Time and Attendance Roster - SSA Form 30
   (T&A Roster) and in three of the seven HOs, supervisors had not always approved
   or documented the Serial Overtime or Holiday Work Attendance Roster - SSA
   Form 29 (Overtime Attendance Roster). In two HOs reviewed, supervisory pre-
   approval documentation of overtime was not maintained properly and in three of the
   HOs, supervisory pre-approval of credit hours was not always maintained.

•	 Timekeeper Compliance with T&A Policies and Procedures - In two of the HOs
   reviewed, timekeepers had not signed the T&A or Overtime Attendance Rosters. In
   one of the HOs, Application for Leave - Standard Form 71 (Leave Application)
   supported only 9 percent of the leave taken for the pay period tested.

•	 Accuracy of Employee T&A Records - Information was not always posted and, in
   some cases, not posted properly from the T&A and Overtime Attendance Rosters to
   the MTAS. We also found numerous mathematical errors in computing the amount
   of time worked, including instances where meal breaks were not excluded from the
   workday.

•	 Other Matters - Other conditions were noted which also showed a lack of internal
   control over the T&A process. These included: employee "sign in" and "sign out"
   times on the T&A and Overtime Attendance Rosters were not always in
   chronological order; changes to the T&A and Overtime Attendance Rosters were not
   always annotated; timekeepers and supervisors used T&A and Overtime Attendance
   Rosters that they also approve; and, one HO used unauthorized T&A and Overtime
   Attendance Rosters.

We attributed many of the errors found during our review to the lack of formal MTAS
training for timekeepers and the outdated and sometimes conflicting criteria used. In
addition, management oversight of the T&A process should be improved.

RECOMMENDATIONS

We recommend that OHA:

•	 Issue instructions to supervisors on the importance of their responsibilities for
   authorizing work hours and leave, and reviewing and certifying that T&A
   records reflect actual hours worked and leave taken.

•	 Instruct timekeepers and supervisors to retain T&A documentation in
   accordance with SSA retention requirements.

• Require that HOs use only SSA approved T&A and Overtime Rosters.




                                             ii
•	 Ensure that all supervisors, timekeepers and employees receive formal
   training in MTAS and T&A responsibilities.

• Periodically review timekeeper and supervisor T&A practices at HOs.

•	 Request that SSA develop a single comprehensive set of policies and
   procedures for T&A activities.

AGENCY COMMENTS

In response to our draft report, SSA agreed with all of the report’s
recommendations and has begun taking action to implement each
recommendation. (See appendix H for the full text of SSA’s comments to our
draft report).




                                          iii
                                TABLE OF CONTENTS


EXECUTIVE SUMMARY ........................................................................................i

INTRODUCTION .................................................................................................... 1

RESULTS OF REVIEW.......................................................................................... 3

SUPERVISOR T&A RESPONSIBILITIES .............................................................. 3
• Supervisory Approval of T&A Rosters............................................................... 3
• Supervisory Approval of Overtime Attendance Rosters .................................... 4
• Supervisory Pre-Approval of Overtime .............................................................. 4
• Supervisory Pre-Approval of Credit Hours ........................................................ 5
• Supervisory Certification of MTAS Data............................................................ 6

TIMEKEEPER COMPLIANCE WITH T&A POLICIES AND PROCEDURES.......... 7
• Verification of T&A and Overtime Attendance Rosters...................................... 7
• Documentation of Leave Approval .................................................................... 8

ACCURACY OF EMPLOYEE T&A RECORDS ...................................................... 8
•	 Information on the T&A and Overtime Attendance Rosters not Posted on
   MTAS ................................................................................................................ 9
•	 Information on the T&A and Overtime Attendance Rosters Incorrectly
   Posted on MTAS ............................................................................................. 10
• Computation Errors on the T&A and Overtime Attendance Rosters ............... 10
• Meal Breaks not Excluded from the Workday ................................................. 11

OTHER MATTERS............................................................................................... 13

CONCLUSIONS AND RECOMMENDATIONS .................................................... 15

APPENDICES
APPENDIX A – Analysis of Overtime Pre-Approvals

APPENDIX B – Analysis of Credit Hour Pre-Approvals

APPENDIX C – Analysis of Time and Attendance Accuracy

APPENDIX D – Analysis of Information on the Rosters Not Posted on MTAS

APPENDIX E – Analysis of Information on the Rosters Incorrectly Posted on MTAS

APPENDIX F – Analysis of Computation Errors on the Rosters

APPENDIX G – Analysis of Meal Breaks Not Excluded From the Workday

APPENDIX H – SSA Comments

APPENDIX I – Major Contributors to this report

APPENDIX J – SSA Organizational Chart

                            INTRODUCTION


OBJECTIVE

The objective of this audit was to evaluate adherence to policies and procedures for
documenting and recording time and attendance (T&A) data for payroll purposes by
Office of Hearings and Appeals (OHA) employees, timekeepers and supervisors located
in Hearing Offices (HO) nationwide.

BACKGROUND

The OHA has approximately 1,150 administrative law judges (ALJ) and 5,600 support
staff in 140 permanent and temporary HOs nationwide. In Fiscal Year (FY) 1998, OHA
spent more than $517 million in salaries and benefits. Social Security Administration's
(SSA) automated Mainframe Time and Attendance System (MTAS) is used to record
and maintain T&A data. T&A data is used to track leave balances and pay employees
once the data is verified by the timekeeper and certified by a duly appointed supervisor.

Although SSA became an independent agency on March 31, 1995, management still
uses the U. S. Department of Health and Human Services (HHS) Guide For
Timekeepers as its primary guide to T&A management. The SSA and OHA
management also issued a number of memoranda to further clarify and manage
employee and timekeeper actions.

In addition to the HHS Guide For Timekeepers and SSA guidance, the following criteria
is also used by timekeepers and supervisors to record, maintain and approve T&A data.

•	 General Accounting Office (GAO) Policy and Procedures Manual for Guidance of
   Federal Agencies
• GAO Revisions to Title 6 on Pay, Leave, and Allowances
• HHS Timekeeping Manual for Timekeepers/Supervisors
• SSA Mainframe Time and Attendance System Training Manual
• SSA Mainframe Time and Attendance System User Manual
• Personnel Manual For Supervisors – SSA

In accordance with GAO guidelines, the completed T&A records must be approved by
the supervisor, and in an automated environment, checked by system edits and other
tests for verification. Verification must ensure that recorded attendance is reasonable
and allowable and, to the best of the supervisor’s knowledge, is true, correct, and
accurate in accordance with applicable laws, regulations, policies and guidelines.
Approvals should be based on personal observation, work output, timekeeper



                                            1

verification, data checks against other independent resources, reliance on other
controls, or a combination of these methods.

SCOPE AND METHODOLOGY

To accomplish our objective, we:

• Reviewed applicable T&A policies;

• Interviewed 9 HO timekeepers, 7 ALJs and 17 Supervisors to determine if they were
  following the procedures specified in applicable regulations and guidelines;

•	 Used a multistage sample design to select the timekeepers to be reviewed. In
   FY 1998, there were 140 timekeeper numbers and 27 pay periods of data per
   timekeeper. This yielded 3,780 timekeeper-pay period clusters. We randomly
   selected 8 of the 3,780 timekeeper-pay period clusters. Because of the way we
   defined the clusters, a timekeeper number could be selected more than once. Our
   random sample resulted in the selection of eight pay periods from seven HOs: one pay
   period at six HOs, and two pay periods at one HO;

•	 Reviewed applicable T&A and leave documents. Specifically, we reviewed the Serial
   Time and Attendance Roster - SSA Form 30 (T&A Roster), the Serial Overtime or
   Holiday Work Attendance Roster - SSA Form 29 (Overtime Attendance Roster) and
   the Application For Leave - Standard Form 71 (Leave Application);

•	 Made unannounced visits to each of the selected HOs to verify that employees were
   present if they had signed in on that day’s T&A Roster; and

•	 Compared the information reported on the reviewed documentation to each
   employee’s MTAS record to determine whether T&A and leave data were reported and
   recorded correctly on a consistent basis.

To meet our objective, we did not have to review the application and systems controls over
the MTAS or the Federal Payroll Personnel System (FPPS). FPPS is the system which
processes MTAS and it is under the control of the Department of Interior (DOI). DOI’s
Inspector General is currently auditing the FPPS.

We performed our audit work in Billings, Montana; Fort Smith, Arkansas; Grand Rapids,
Michigan; Hartford, Connecticut; Jackson, Mississippi; Jericho, New York; and Portland,
Oregon. We conducted our audit between September 1998 and October 1999. We
conducted our audit in accordance with generally accepted government auditing
standards.




                                            2

                           RESULTS OF REVIEW


Supervisors, timekeepers, and employees in HOs do not always adhere to T&A
procedures. T&A practices in HOs require improvement in the following areas to ensure
the integrity of the system: (1) supervisory compliance with T&A responsibilities;
(2) timekeeper compliance with T&A policies and procedures; (3) accuracy of employee
T&A records; and (4) other matters relating to a lack of controls over the T&A process.

SUPERVISOR T&A RESPONSIBILITIES

The primary objective of the T&A system is to ensure that the employees’hours in pay
status or absences are properly reported. More specifically, GAO’s Policy and
Procedures Manual for Guidance of Federal Agencies states, “… supervisors are
accountable for… the work time and absence of employees for whom they are
responsible… .” Furthermore, supervisors are charged with the responsibilities of:
(1) getting leave supporting documents from employees; (2) reviewing timekeeper
performance regularly; and (3) certifying that the timekeeper is proficient in performance
of timekeeping duties.

Supervisory Approval of T&A Rosters

Supervisors are responsible for approving T&A Rosters. Such approvals represent that
actual work schedules recorded by employees or timekeepers are, to the best of the
approving official’s knowledge, true, correct and accurate. Supervisors are also
certifying that the work schedules are in accordance with applicable laws, regulations
and legal decisions. The approving officials acknowledge awareness and
understanding of their responsibilities when approving T&A data. In manual systems,
which are used at OHA's HOs, approvals are usually shown by the individual’s signature
or initial on a hard-copy document. 1

Supervisors in five of the seven HOs we reviewed had not adequately approved the
T&A Roster. In three of the HOs, the T&A Rosters had no supervisory approval and the
supervisory approval rate at the remaining two HOs were 33 percent and 89 percent.
(See the following table.)

While we were on site at each of the seven HOs, we selected one day to verify the
attendance of employees who had signed in on that day’s T&A Roster. All employees
who signed in on the T&A Roster were at work.


1
    Revisions to Title 6 on Pay, Leave, and Allowances (GAO/AIMD-96-001c), March 1996, 3.6 A.


                                                    3

Supervisory Approval of Overtime Attendance Rosters

In addition, in three of the seven HOs reviewed, supervisors had not adequately
approved the Overtime Attendance Rosters. Overtime Attendance Rosters at two of the
three HOs had no supervisory approval and 62 percent of the Overtime Attendance
Rosters at the third HO were approved. The reasons given for not approving the
Overtime Attendance Rosters were that supervisors were unaware of the requirements
or knew that the roster should be signed, but for an unknown reason, did not sign them.
The remaining four HOs had all of the Overtime Attendance Rosters approved by a
supervisor.

                              Supervisory Approval Percentages2

           HO #                1        2        3        4   5a   5b    6     7
           T&A Roster         89       33       0         0    0    0   100   100
           OT Roster         100       100      62        0    0    0   100   100


Because the T&A and Overtime Attendance Rosters were not adequately approved, the
supervisors were unable to document that the T&A information was accurate and in
accordance with applicable laws and regulations.

Supervisory Pre-Approval of Overtime

Overtime worked at the HOs reviewed was not always pre-approved or documentation
was not always maintained. There were a total of 1,077 hours of overtime worked
during the 8 pay periods reviewed. Of the total overtime hours worked, 236 hours were
pre-approved and 841 hours were not pre-approved. The 841 hours were approved
after the overtime was worked, which is not in accordance with SSA policy. In order to
quantify the hours not pre-approved, we applied each employee's pay rate to the
applicable hours. The amount of overtime not pre-approved totaled $22,658 (see
Appendix A).

In addition, two of the seven HOs did not maintain pre-approval documentation. One of
the HOs had pre-approvals for all overtime worked and the remaining four HOs had pre-
approvals ranging from 9 percent to 99 percent of the overtime hours worked. The
percentages of pre-approved overtime is shown in the following table. Overall, written
pre-approval was available for 22 percent of the overtime for the seven pay periods with
overtime and written pre-approval was not available for 78 percent of the overtime.




2
    HOs 5a and 5b represent two pay periods at the same HO.


                                                     4

                           Overtime Pre-approval Percentages

      HO #                     1        2       3      4      5a     5b       6       7
      Pre-approval            99       29       0      9      NA     25       0      100


Officials at two of the seven HOs reviewed explained that pre-approval forms had been
prepared but had been discarded. The supervisors stated that they did not realize that
the overtime documentation was a part of T&A records. SSA policy requires retention
of T&A records for no less than 3 years.3 Officials at the two HOs told us that they
currently require overtime approvals and provided us with an example. Officials at the
remaining five HOs with either partial or no documentation either had not prepared
approvals or could not locate them.

According to the GAO Policy and Procedures Manual For Guidance of Federal
Agencies, “Approval must be granted for overtime before the work has been performed
when feasible and, when not feasible, as soon as possible after the work has been
performed.”4 Other Federal regulations require “Overtime work in excess of any
included in a regularly scheduled administrative workweek may be ordered or approved
only in writing by an officer or employee to whom this authority has been specifically
delegated.”5 In addition, SSA's Personnel Manual For Supervisors states that “Officials
having delegated authority must order or approve employees to work overtime in
advance of its being performed.”6

A more recent memorandum, from the Associate Commissioner for Hearings and
Appeals, dated March 27, 1998 states that “Second-line supervisors must approve
employees to work overtime in advance of it being performed… . After approval, the
forms should be retained with the sign-in rosters or in a separate folder for Overtime
Approval.”7

We believe that internal controls were in place for the approval of overtime but were not
being followed.

Supervisory Pre-Approval of Credit Hours

The HOs reviewed did not always have pre-approvals for credit hours worked. There
was a total of 334 credit hours worked during the 8 pay periods reviewed. The HOs had
written pre-approval for 112 credit hours and no written pre-approval for 222 hours. In
order to quantify the hours with no written pre-approval, we applied each employee’s
pay rate to the applicable hours and the amount totaled $5,176 (see Appendix B).

3
  HHS’Timekeeping Manual for Timekeepers/Supervisors (August 1993) Chapter 1- Page 14.

4
  Revisions to Title 6 on Pay, Leave, and Allowances (GAO/AIMD-96-001c), March 1996, 3.6 B.

5
  5 CODE OF FEDERAL REGULATIONS 550.111 (January 1, 1998 Revision)

6
  Personnel Manual For Supervisors— SSA, Chapter S550, Subchapter 1, Section IV B.

7
  Associate Commissioner for Hearings and Appeals Memorandum, March 27, 1998, Office of Hearings

and Appeals Overtime Procedures – ACTION.



                                                5

In addition, three of the seven HOs reviewed did not maintain documentation for the
pre-approval of employees to work credit hours. The remaining four HOs had some
pre-approval documentation as shown in the following table. Overall, written pre-
approval was available for 34 percent of the credit hours worked at the seven HOs and
was not available for 66 percent of the credit hours worked.

                         Credit Hour Pre-approval Percentages

       HO #                   1       2       3      4      5a     5b      6       7
       Pre-approval          38       0       0      0      55     46     18      59


Of the three HOs that could not provide documentation, officials at two HOs explained
that pre-approval forms had been prepared but had been discarded. The supervisors
did not realize that the credit hour documentation was part of T&A records. SSA
requires retention of T&A records for no less than 3 years. Officials at the two HOs told
us that they currently require credit hour approvals and provided us with an example. In
addition, one HO did not have pre-approval documentation because its Regional office
had provided directions that written approval was not necessary. The remaining five
HOs with some documentation either had not prepared approvals in all cases or could
not locate them.

According to the Timekeeping Manual for Timekeepers/Supervisors, “Employees must
have their supervisor’s approval in advance to earn and use credit hours.” The
Agreement Between the Office of Hearings and Appeals and the National Treasury
Employees Union requires that an employee will complete a request to work credit
hours on or prior to the workday credit hours are to be worked. The National
Agreement Between American Federation of Government Employees (AFGE) and SSA
requires that an employee will complete a request to work credit hours prior to the
workday credit hours are to be worked. The request is to be submitted to the
employee’s supervisor. In addition, a memorandum from the Chief ALJ on
March 12, 1997, states that “In order to work credit hours on any given day, employees
must receive advance approval… . This policy applies to all ALJs, bargaining unit, and
non-bargaining unit employees. There are no exceptions to this policy.”

We believe that internal controls were in place for the approval of credit hours but they
were not being followed.

Supervisory Certification of MTAS Data

The certification process is a crucial internal control that provides the opportunity for the
supervisor to identify errors and correct T&A entries before they are entered into the
MTAS. Supervisors are responsible for reviewing and certifying T&A entries prior to
submission for payment through the MTAS and the payroll system.



                                              6

Our review showed that not all supervisors performed a detailed review of T&A data
during the certification process. The primary reason for the supervisor not making a
detailed review was that he or she depended on the timekeeper to maintain accurate
records. Although it is a timekeeper’s responsibility to maintain records, it is the
supervisor’s responsibility to properly certify records to identify any errors that might be
made by the timekeeper. As discussed in other sections of the report, various instances
of work and leave were incorrect and recorded in the MTAS. The adherence to the
proper internal control of certification would have resulted in a reduction of T&A errors.

TIMEKEEPER COMPLIANCE WITH T&A POLICIES AND PROCEDURES

Timekeepers were not always complying with T&A policies and procedures that require
them to verify and attest by signature all T&A and Overtime Attendance Rosters.
Further, some T&A records were not properly safeguarded. In addition, T&A and
Overtime Attendance Rosters were not properly completed, which resulted in T&A
errors.

Verification of T&A and Overtime Attendance Rosters

Timekeepers are required to sign and enter their timekeeper number on the preprinted
signature line located at the bottom of the T&A and Overtime Attendance Rosters to
verify the T&A data. Verifications are confirmations that recorded information is true,
correct, and accurate to the best of the verifier’s knowledge. Verification enables
timekeepers to check or test recorded work-time to determine if it is reasonable and
allowable.

The T&A Roster provides a signature line for the timekeepers which states that the
form’s entries have been reviewed, and to the best of their knowledge are true,
complete and accurate. The requirement to sign the Overtime Attendance Roster is
specifically included on the instructions to the form. In addition, SSA's Personnel
Manual for Supervisors states that “Timekeepers and supervisors must check, verify,
sign and date the attendance roster on a daily basis.”8

As noted in the following table, in two of the seven HOs reviewed, the timekeepers had
not signed either the T&A or the Overtime Attendance Rosters. In four of the seven
HOs, the T&A and Overtime Attendance Rosters had been signed. Timekeepers in the
remaining HOs had signed both the T&A and the Overtime Attendance Rosters
between 33 percent and 90 percent of the time. By not signing the T&A and Overtime
Attendance Rosters, there is no indication that the timekeeper is accepting responsibility
for the accuracy of the recorded information.




8
    Personnel Manual for Supervisors-SSA, Chapter S550, Subchapter 1, Appendix B, Section 1.D.


                                                   7

                              Timekeeper Approval Percentages

    HO #                      1        2        3         4     5a         5b         6         7
    T&A Roster                87      100       0         0     100        33        100       100
    OT Roster                100      100       0         0      90         0        100       100



Documentation of Leave Approval

Leave is to be requested in advance in writing to the employee’s supervisor, except for
emergencies. The Leave Application was designed for this purpose. Employees
complete the Leave Application and give it to their supervisor or leave-approving official
to review for completeness and accuracy. The supervisor signs the form if the leave is
approved and gives it to the timekeeper.9

One of the seven HOs reviewed had Leave Applications for only 9 percent of leave
taken during the pay period. The remaining six HOs provided a greater percentage of
Leave Applications to support leave taken, however, only one HO supported
100 percent of its leave. The percentages of leave supported by Leave Applications for
the remaining five HOs ranged from 76 percent to 96 percent as shown in the following
table.

                                   Leave Approval Percentages

          HO #                 1        2       3        4     5a     5b        6          7
          Leave
          Applications        100       9      96        87    95     94        76     95


We believe it is important that supervisors recognize their responsibilities for
documenting the approval of leave and requiring employees to submit Leave
Applications. In addition, employees also have the responsibility to properly complete
T&A records.

ACCURACY OF EMPLOYEE T&A RECORDS

Our review showed that supervisors need to emphasize their role in authorizing,
reviewing and certifying T&A documents for their employees. Supervisors were not
always exercising an adequate level of supervisory review to enforce basic T&A control
procedures. Therefore, the potential for errors exists in the processing of T&A records.
Supervisors did not always review T&A records to ensure that the records were
accurate.

9
    HHS’Timekeeping Manual for Timekeepers/Supervisors (August 1993) Chapter 4 Page 6.


                                                    8

In many instances, employees did not correctly complete T&A and Overtime Attendance
Rosters and errors were not detected by the timekeeper or supervisor. Our review
revealed many types of errors which demonstrate the weaknesses in the T&A controls.
For report purposes, we grouped the errors into four categories. The four general
categories are not all inclusive but are representative of the types of errors found.
These four categories are:

      •	 Information on the T&A and Overtime Attendance Rosters not posted on
         MTAS;
      •	 Information on the T&A and Overtime Attendance Rosters incorrectly posted
         on MTAS;
      • Computation Errors on the T&A and Overtime Attendance Rosters; and
      • Meal breaks not excluded from the workday.

We counted the number of errors by category for each of the eight pay periods
reviewed. Each category described below includes typical examples. On an individual
basis some of these examples of errors may not be material; however, collectively they
show a pattern of not adhering to established internal control over the T&A process.
Further, if these types of errors are present at other HOs in the same proportions, the
effect is material (see Appendix C).

Information on the T&A and Overtime Attendance Rosters not Posted on MTAS

Information on the T&A and Overtime Attendance Rosters was not always posted on
MTAS. This category shows that the majority of errors were underclaimed amounts. A
total of 5.75 hours were overclaimed and 74.25 hours underclaimed which represented
$150 and $1,943, respectively (see Appendix D).

                    Information on Rosters not Posted on MTAS

HO #                   1        2       3        4       5a       5b       6        7
Number of Errors               23                                         12


                                     EXAMPLES

      •	 An employee worked 4 regular hours according to the T&A Roster and
         had a signed and approved Leave Application for 4 hours of annual
         leave. However, the MTAS showed 8 hours of annual leave. There
         was no documentation to support the additional 4 hours of annual
         leave.

      •	 An employee had a signed and approved Leave Application for
         1¾ hours of sick leave. The MTAS showed 8 regular hours worked.
         Thus, the 1¾ hours of sick leave was not properly charged.



                                            9

      •	 Overtime for seven employees was not posted to MTAS for a single
         day’s work and overtime for three other employees was not posted to
         MTAS on another day. The overtime not posted totaled 22 hours for
         the two days.

Information on the T&A and Overtime Attendance Rosters Incorrectly Posted on
MTAS

Information on the T&A and Overtime Attendance Rosters was not always posted
correctly on MTAS. The category showed a total of 21.75 hours overclaimed
and .75 hours underclaimed which represented $434 and $11, respectively.
(See Appendix E).

                Information on Rosters Incorrectly Posted on MTAS

HO #                  1        2        3         4     5a       5b       6        7
Number of Errors               1        1                         3       2        2


                                     EXAMPLES


      •	 The Overtime Attendance Roster showed that the employee "Signed-
         in" at 5:02pm and "Signed-out" at 5:42pm (40 minutes). The employee
         claimed ½ hour overtime on the Overtime Attendance Roster. The
         timekeeper recorded ¼ hour of overtime on MTAS. Thus, rounding up,
         ½ hour of overtime was underclaimed.

      •	 The Overtime Attendance Roster showed that the employee "Signed-
         in" at 3:09pm and "Signed-out" at 3:57pm (48 minutes). The employee
         claimed ¾ hour of overtime on the Overtime Attendance Roster. The
         timekeeper recorded 1 hour of overtime on MTAS. Thus, ¼ hour of
         overtime was overclaimed.

Computation Errors on the T&A and Overtime Attendance Rosters

Information on the T&A and Overtime Attendance Rosters had various mathematical
errors that were not detected. The errors included time miscalculations and rounding
errors. A total of 16.50 hours were overclaimed and 8.75 hours underclaimed, which
represented $275 and $249, respectively (see Appendix F).

              Computation Errors on Rosters (time spans, rounding)

HO #                  1        2        3          4    5a       5b       6        7
Number of Errors      2        7        6         28    5         3                3


                                            10

                                            EXAMPLES


          •	 The Overtime Attendance Roster showed that the employee "Signed-
             in" at 4:50pm and "Signed-out" at 7:05pm. The employee claimed
             1 hour of overtime and 1¾ hours of compensatory time on the
             Overtime Attendance Roster. Since the employee actually worked
             2 hours and 15 minutes the employee overclaimed ½ hour of either
             overtime or compensatory time.

          •	 The T&A Roster showed that the employee "Signed-in" at 6:42am and
             "Signed-out" at 3:05pm. The employee claimed 8 Regular hours on
             the T&A Roster. Since the employee actually worked 7 hours and
             53 minutes, the employee rounded up 7 minutes.

We noticed a trend to round up a few minutes when employees signed out. While the
practice of rounding is allowed by contract during overtime, it is not permitted during the
regular workday. We believe that management should be aware of this distinction and
the potential cumulative effect the practice of rounding can have. HO number 4 had 22
instances of rounding up ranging from 2 to 7 minutes for 10 employees for the one pay
period reviewed. On a case by case basis, the rounding is not material, but on a
cumulative basis, it could be significant.

Meal Breaks Not Excluded From the Workday

Meal breaks were not always excluded from the workday. Our review showed that
10.75 hours were overclaimed which represented $273 (see Appendix G). The
Timekeeping Manual for Timekeepers/Supervisors states that “Employees are not paid
for their meal break. Do not record meal time under regular hours worked.”10 In
addition, the SSA Personnel Manual for Supervisors states that noncompensable meal
breaks are required when working overtime in excess of 3 hours immediately following a
workday or in excess of 5 hours on days outside their tour.11

                        Meal Breaks Not Excluded From the Workday

HO #                        1        2         3         4       5a       5b         6    7
Number of Errors                              10                 1         4         7


                                            EXAMPLES

          • The Overtime Attendance Roster showed that the employee "Signed-
            in" at 8:30am and "Signed-out" at 3:30pm. The employee claimed

10
     HHS’Timekeeping Manual for Timekeepers/Supervisors (August 1993) Chapter 3, Page 5
11
     Personnel Manual For Supervisors – SSA, Chapter S550, Subchapter IV J. 1.


                                                   11

          7 hours of overtime without deducting ½ hour for lunch. Thus, the
          employee overclaimed ½ hour of overtime.

      •	 The Overtime Attendance Roster showed that the employee "Signed-
         in" at 9:00am and "Signed-out" at 3:30pm. The employee claimed
         6½ hours of Holiday pay without deducting ½ hour for lunch. Thus, the
         employee overclaimed ½ hour of Holiday pay.

      •	 The Overtime Attendance Roster showed that the employee "Signed-
         in" at 6:30am and "Signed-out" at 4:30pm. The employee claimed
         10 hours of overtime without deducting ½ hour for lunch. Thus, the
         employee overclaimed ½ hour of overtime.

We believe further training would help prevent the errors revealed in our review and
emphasize T&A responsibilities. Training would not only show the mechanics of
preparing forms or entering data, but also would explain the rules and regulations to
better emphasize the reasons for properly following procedures.

Timekeepers in two of the HOs had received only on-the-job training (OJT). The
remaining five timekeepers had received OJT and basic introduction MTAS training as
shown in the following table. MTAS came on line in 1996, and there has not been any
formal follow-up training since that time.

                                   Training Methods


        HO #          1       2        3          4      5         6       7
        Training     OJT/    OJT/     OJT/              OJT/             OJT/
                                                 OJT              OJT
                     MTAS    MTAS     MTAS              MTAS             MTAS


We also believe that the voluminous quantity of sometimes outdated T&A criteria can
cause confusion, inconsistencies, improper controls and inaccurate records that can
affect the integrity of the T&A system.

Although SSA became an independent agency on March 31, 1995, management
continues to use the HHS guidelines. In addition, SSA and OHA management have
issued a number of memoranda to further clarify and manage employee and timekeeper
actions. Further, there are several other sources of criteria for determining the
effectiveness and efficiency of SSA timekeepers' and supervisors’recording,
maintaining and approving T&A data. These sources include:

• HHS Timekeeping Manual for Timekeepers/Supervisors (August 1993)
• GAO Policy and Procedure Manual for Guidance of Federal Agencies (May 1989)
• GAO Revisions to Title 6 on Pay, Leave, and Allowances (March 1996)


                                           12

• Personnel Manual For Supervisors – SSA (1980s & 1990s)
• SSA Mainframe Time and Attendance System Training Manual (February 1996)
• SSA Mainframe Time and Attendance System User Manual (September 1996)
• 5 Code of Federal Regulations (Updated yearly)
• National Agreement Between AFGE and SSA (1996)
•	 Agreement Between The Office of Hearings and Appeals and National Treasury
   Employees Union (March 1995)

These sources of criteria comprise policies, guidelines, or specific instructions for T&A
activities. Being aware of all of the information relating to T&A is an ominous task. In
addition, some of the sources disagree with other sources. For example, the retention
of document guidelines differs.

       The Personnel Manual for Supervisors – SSA Chapter S550,

       Subchapter 1, Appendix B, Section III (A)(3) - page 4 (May 15, 1990)

       states that the approval document must be maintained for 3 years or after

       a GAO audit, whichever is sooner.


       The Personnel Manual for Supervisors -- SSA, Chapter S610,

       Subchapter 1, Section XI, paragraph A (11/26/82) states that sign-in and

       sign-out forms are to be retained for 6 months and then destroyed.


       The Personnel Chapters for Supervisors -- SSA, Chapter S630,

       Subchapter 1, Section VI, Paragraph E (4). (5/20/80) states that an

       SF-71, Application for Leave, and other leave documentation including

       medical certificates will be kept by timekeepers for 1 full calendar year

       after the year of application as documentation that the leave was formally

       approved or denied.


This shows the potential problems that can exist with a voluminous amount of outdated
information. In addition, the HHS guidelines discuss many antiquated systems that
were used before SSA became a separate agency.

OTHER MATTERS

In addition to the conditions discussed above, other conditions exist which also showed
an absence of internal control over the T&A process. The following list of additional
conditions is not all inclusive of every type found but a representative list of what we
consider additional internal control weaknesses:




                                            13

• Employees did not always sign-in and sign-out in chronological order.
•	 When some type of time sheet alteration was made, employees did not
   always annotate an explanation.
•	 Some supervisors and timekeepers signed in on the same T&A and Overtime
   Rosters that they were supposed to verify.
•	 Employees did not always fully complete all required information on the T&A
   Rosters, Overtime Rosters, and Leave Applications.
•	 Timekeepers in six of the seven HOs reviewed improperly completed
   headings on the T&A and Overtime Rosters.
•	 One of the HOs reviewed used their own Regional timesheet form rather than
   the required T&A and Overtime Rosters.
•	 In one of the HOs reviewed, ALJs used Form SSA-3531, Time and
   Attendance Roster (Individual), rather than the required T&A Roster
   (SSA 30).

Based on the findings in our review, we believe that overall management oversight
should also be improved. We believe that better management oversight would help
ensure that supervisors and timekeepers adhere to established internal controls
designed to maintain the integrity and accuracy of T&A records.

A SSA Director of Management memorandum addressed to all OHA supervisors
requires a periodic review and certification of sign-in sheets. The memorandum
establishes that:

      “… second-line supervisors are required to review and certify for
      completeness and accuracy all sign-in sheets for one pay period in March
      and one pay period in September.

      The reviewing supervisor must sign or initial each sign-in sheet to certify
      that the sheet was reviewed. Additionally, if a substantial number of errors
      are found, the supervisor must conduct additional audits until the problems
      are resolved.”

Supervisors at four of the seven hearing offices told us that they performed these
internal reviews, but only one hearing office retained documentation. We believe
these reviews should receive greater emphasis and documentation should be
kept. Rather than the second-line supervisor reviewing one pay period in March
and one pay period in September, the two pay periods per year should be
randomly selected. Results of these reviews should be reported to OHA
headquarters.




                                           14

 CONCLUSIONS AND RECOMMENDATIONS


Internal controls in HOs were not being adhered to on a consistent basis. As a
result, we found errors in supervisor and timekeeper compliance with T&A
policies and procedures. Further, employee recording of time worked was not
accurate. We believe management cannot ensure that basic T&A procedures
are being consistently followed and needs to provide HOs with additional
instruction, training and management reviews to ensure the integrity of the T&A
system.

We recommend that OHA:

1.	 Issue instructions to supervisors on the importance of their responsibilities for
    authorizing work hours and leave, and reviewing and certifying that T&A
    records reflect actual hours worked and leave taken.

2.	 Instruct timekeepers and supervisors to retain T&A documentation in
    accordance with SSA retention requirements.

3. Require that HOs use only SSA approved T&A and Overtime Rosters.

4.	 Ensure that all supervisors, timekeepers and employees receive formal
    training in MTAS and T&A responsibilities.

5. Periodically review timekeeper and supervisor T&A practices at HOs.

6.	 Request that SSA develop a single comprehensive set of policies and
    procedures for T&A activities.

AGENCY COMMENTS

In response to our draft report, SSA agreed with all of our recommendations and
has begun taking action to implement each recommendation.




                                             15

APPENDICES

                                                         APPENDIX A



               ANALYSIS OF OVERTIME

                  PRE-APPROVALS



Hearing    Total                         Hours  Percentage     Dollar
 Office   Hours       Hours   Percentage  Not      Not        Value Not
Number    Worked     Approved Approved Approved Approved      Approved

  1          87.50      87.00     99.40     0.50       0.60      $18.83

  2         170.50      50.00     29.30   120.50      70.70   $2,970.29

  3         240.75       0.00      0.00   240.75     100.00   $5,260.27

  4         108.25       9.50      8.80    98.75      91.20   $2,926.24

  5a          0.00        NA        NA       NA         NA          NA

  5b        212.00      53.00     25.00   159.00      75.00   $3,594.05

  6         221.00       0.00      0.00   221.00     100.00   $7,888.19

  7          36.75      36.75    100.00     0.00       0.00       $0.00


 Total     1076.75     236.25     21.90   840.50      78.10 $22,657.87
                                                            APPENDIX B


             ANALYSIS OF CREDIT HOUR

                 PRE-APPROVALS



Hearing    Total                           Hours   Percentage    Dollar
 Office   Hours      Hours      Percentage  Not       Not       Value Not
Number    Worked    Approved     Approved Approved Approved     Approved

  1         27.50       10.50       38.20     17.00     61.80     $259.70

  2         23.50        0.00        0.00     23.50    100.00     $538.73

  3          3.00        0.00        0.00      3.00    100.00      $51.75

  4         74.00        0.00        0.00     74.00    100.00   $1,788.12

  5a        81.50       44.50       54.60     37.00     45.40     $920.76

  5b        29.75       13.75       46.20     16.00     53.80     $383.36

  6         30.00        5.25       17.50     24.75     82.50     $376.74

  7         64.50       38.25       59.30     26.25     40.70     $856.40

 Total     333.75      112.25       33.60    221.50     66.40   $5,175.56
                                                           APPENDIX C


            ANALYSIS OF

  TIME AND ATTENDANCE ACCURACY



                         Information on
          Information on     Rosters
            Rosters Not    Incorrectly
             Posted on      Posted on
            Mainframe      Mainframe
Hearing       Time &         Time &       Computation    Meal Breaks
 Office     Attendance     Attendance      Errors on    Not Excluded
Number        System         System         Rosters     from Workday

  1             0              0               3             0


  2            23              1               7             0


  3             0              1               8             10


  4             0              0              38             0


  5a            0              0               5             1


  5b            0              3               3             4


  6            12              2               0             7


  7             0              2               3             0


 Total         35              9              67             22
                                                           APPENDIX D


        ANALYSIS OF INFORMATION ON
        THE ROSTERS NOT POSTED ON
       MAINFRAME TIME & ATTENDANCE
                  SYSTEM


Hearing                    Value of                       Value of
 Office     Hours          Amount          Hours          Amount
Number    Overclaimed    Overclaimed    Underclaimed    Underclaimed

  1               0.00          $0.00            0.00           $0.00

  2               0.00          $0.00           52.25       $1,362.37

  3               0.00          $0.00            0.00           $0.00

  4               0.00          $0.00            0.00           $0.00

  5a              0.00          $0.00            0.00           $0.00

  5b              0.00          $0.00            0.00           $0.00

  6               5.75        $149.79           22.00         $580.98

  7               0.00          $0.00            0.00           $0.00

 Total            5.75        $149.79           74.25       $1,943.35
                                                           APPENDIX E


  ANALYSIS OF INFORMATION ON THE
  ROSTERS INCORRECTLY POSTED ON
   MAINFRAME TIME & ATTENDANCE
              SYSTEM


Hearing                    Value of                       Value of
 Office     Hours          Amount          Hours          Amount
Number    Overclaimed    Overclaimed    Underclaimed    Underclaimed

  1               0.00          $0.00            0.00           $0.00

  2               9.00        $232.74            0.00           $0.00

  3               2.00         $19.60            0.00           $0.00

  4               0.00          $0.00            0.00           $0.00

  5a              0.00          $0.00            0.00           $0.00

  5b              1.25         $24.29            0.50           $7.61

  6               8.00        $138.32            0.25           $3.61

  7               1.50         $19.24            0.00           $0.00

 Total           21.75        $434.19            0.75          $11.22
                                                          APPENDIX F


ANALYSIS OF COMPUTATION ERRORS ON

            THE ROSTERS



Hearing                    Value of                       Value of
 Office     Hours          Amount          Hours          Amount
Number    Overclaimed    Overclaimed    Underclaimed    Underclaimed

  1                .50         $10.44            0.00           $0.00

  2               1.25         $20.97            1.75          $39.80

  3               2.75         $32.47            1.00          $12.50

  4               5.50        $104.11            3.00         $117.36

  5a              5.00         $68.85            0.00           $0.00

  5b              0.00          $0.00            2.25          $59.07

  6               0.00          $0.00            0.00           $0.00

  7               1.50         $38.44            0.75          $20.28

 Total           16.50        $275.28            8.75         $249.01
                                            APPENDIX G


  ANALYSIS OF MEAL BREAKS

NOT EXCLUDED FROM WORKDAY



    Hearing                   Value of
     Office     Hours          Amount
    Number    Overclaimed    Overclaimed

      1               0.00          $0.00

      2               0.00          $0.00

      3               4.75         $88.36

      4               0.00          $0.00

      5a              0.50         $12.19

      5b              2.00         $26.67

      6               3.50        $145.75

      7               0.00          $0.00

     Total           10.75        $272.97
                APPENDIX H


SSA COMMENTS

COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “OFFICE OF HEARINGS AND APPEALS (OHA) TIME AND
ATTENDANCE POLICIES AND PROCEDURES AT HEARING OFFICES”
(A-06-98-91010)


Thank you for the opportunity to review the draft report. We agree with the report’s
recommendations and believe that all offices within OHA will benefit from a reiteration of the
time and attendance (T&A) rules and practices.

OHA released a memorandum with T&A instructions and reminders to all managers, supervisors
and timekeepers on April 28, 2000. This memorandum included: (1) a copy of the subject draft
report; (2) a summarization of the report recommendations; (3) instructions for the steps to be
taken immediately in all offices; (4) directions that the report be discussed and made available to
all employees during staff meetings; and (5) instructions for Regional Office management to
incorporate the review of T&A documents as an element in the periodic management reviews of
HOs.

The following comments describe actions planned or already taken to implement each
recommendation.

Recommendation #1

That OHA issue instructions to supervisors on the importance of their responsibilities for
authorizing work hours and leave, and reviewing and certifying that time and attendance (T&A)
records reflect actual hours worked and leave taken.

Comment

Reminders to supervisors about their T&A responsibilities were included in the April 28
memorandum.

Recommendation #2

Instruct timekeepers and supervisors to retain T&A documentation in accordance with SSA
retention requirements.

Comment

The memorandum of April 28 instructed that action be taken immediately to ensure retention of
all T&A documentation.




                                            H-2

Recommendation #3

Require that HOs use only SSA approved T&A and Overtime Rosters.

Comment

The April 28 memorandum specifically instructed supervisors to immediately ensure use of only
SSA approved forms for T&A purposes.

Recommendation #4

Ensure that all supervisors, timekeepers and employees receive formal training in Mainframe
Time and Attendance Services (MTAS) and T&A responsibilities.

Comment

OHA is currently canvassing its offices to identify training needs and will coordinate with other
SSA components to determine methods and schedules to deliver training.

Recommendation #5

Periodically review timekeeper and supervisor T&A practices at HOs.

Comment

As stated in the April 28 memorandum, review of timekeeper and supervisory T&A practices
will be incorporated into the periodic management reviews performed by Regional Office
management officials.

Recommendation #6

Request that SSA develop a single comprehensive set of policies and procedures for T&A
activities.

Comment

SSA is currently working on an automated T&A system. In conjunction, SSA has begun work
on a comprehensive set of policies and procedures for T&A activities. The automated T&A
system is expected to be piloted by the end of the calendar year with implementation roll-out
beginning in FY 2001.




                                           H-3

                                                                            APPENDIX I


                OIG CONTACTS AND STAFF

                  ACKNOWLEDGEMENTS


OIG Contacts

Roger Normand, Director, Disability Program Audit Division, (617) 565-1822

Michael Maloney, Deputy Director, (703) 578-8849, Ext. 104

Acknowledgements

In addition to those named above:

   Billy Mize, Auditor in-Charge

  Frank Almendarez, Evaluator

For additional copies of this report, please contact Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-06-98-91010.
                        APPENDIX J


SSA ORGANIZATIONAL CHART

